THOMAS E. TOWE

TOWE, BALL, MACKEY, SOMMERFELD
& TURNER, PLLP

P.O. Box 30457

Billings, MT 59107-0457

Phone: (406) 248-7337

Fax: (406) 248-2647

Attorney for Petitioners

IN THE SUPREME COURT OF THE UNITED STATES
No.

IN RE THE ESTATE OF EDWARD M. BOLAND,
Deceased,

PAUL BOLAND and MARY GETTEL,
As Heirs of the Estate of Dixie L. Boland,

Petitioners,
v.

CHRIS BOLAND, BARRY BOLAND, ED BOLAND
CONSTRUCTION, INC., and NORTH PARK
INVESTMENTS, LLC,

Respondents,

MOTION FOR EXTENSION OF TIME
TO: HON. ELENA KAGAN, ASSOCIATE JUSTICE
COME NOW the Petitioners, Paul Boland and Mary Gettel and move the Court
for an extension of time within which to file a Petition for a Writ of Certiorari to the
United States Supreme Court. Petitioners need an additional 10 days time to prepare

the appendixes and coordinate them with the Table of Contents in their Petition.

 

Because of the large volume of documents in the underlying Courts, dealing with the

RECEIVED
JAN 28 2020

OFFICE OF THE CLERK
SUPREME COURT. U.S.

   
     
     

 
.

appendixes that must accompany the filing will take more time than exists between
now and the time the petition is due on February 3, 2020.1 This motion is made
pursuant to authorization in 28 U.S.C. §2101(¢) and Rule 30(2) of the Rules of the
United States Supreme Court. Ten days before the final filing date makes this motion
for extension due today, January 24, 2020.

The purpose of this motion and the facts upon which this motion is based is as
follows: Counsel needs to obtain adequate time to make sure the Petition and its
Appendixes are in compliance with this Court’s rules. The facts on which it is based are
that the Petition is essentially completed but staff has indicated the number of
documents attached in the appendix are so voluminous because of the documents
submitted in the underlying case that putting them into adequate booklets for the
Appendixes as required by the rules of this Court will take more than the time allotted
between now and February 3, 2020. Counsel originally thought plenty of time was set
aside for this purpose but now is informed that it will be very difficult if not impossible
to provide all the Appendixes as required by the rules within the time allotted.

Respectfully submitted this 24‘ day of January, 2020.

TOWE, BALL, MACKEY, SOMMERFELD

& TURNER, PLLP
Attorneys for Petitioners

wy Wom DZ

THOMAS E. TOWE, ESQ.

1 The Decision of the Montana Supreme Court was filed October 3, 2019. The
Petitioners’ Petitioned for Rehearing was denied November 5, 2019, and therefore
the 90 days authorized within which to file a petition for Writ of Certiorari is due on
February 3, 2020.
CERTIFICATE OF COMPLIANCE AND SERVICE

 

As required by Supreme Court Rule 33.2 and Rule 29, I declare under penalty
of perjury that the foregoing is true and correct.

This is to certify that on this 24% day of January, 2020, a true and accurate
copy of the foregoing Motion for Extension of Time was duly served by first-class mail,
postage prepaid and email, upon the following counsel of record:

Jason T. Holden

Katie R. Ranta

Faure Holden Attorneys at Law, PC
P.O. Box 2466

Great Falls, MT 59403

TOWE, BALL, MACKEY, SOMMERFELD
& TURNER, P.L.L.P.
Attorney for Petitioners

 
